APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Seventh Circuit, Nos.
18-3145 and 18-3153
(October 24, 2019) . . . . . . . . . . . . . App. 1
Appendix B Entry Discussing Motion to Alter or
Amend Judgment in the United States
District Court, Southern District of
Indiana, Indianapolis Division, No.
1:16-cv-01729-WTL-DML
(September 6, 2018) . . . . . . . . . . . App. 9
Appendix C Entry Granting Petition for a Writ of
Habeas Corpus and Final Judgment in
the United States District Court,
Southern District of Indiana,
Indianapolis Division, No. 1:16-cv01729-WTL-DML
(November 30, 2017) . . . . . . . . . . App. 13
Appendix D Memorandum Decision in the Court of
Appeals of Indiana, No. 45A05-1506PC-687
(January 11, 2016) . . . . . . . . . . . App. 32
Appendix E Opinion in the Indiana Supreme
Court, No. 45S04-1212-CR-687
(December 19, 2012) . . . . . . . . . . App. 47
Appendix F Memorandum Decision in the Court of
Appeals of Indiana, No. 45A04-1106CR-328
(March 21, 2012) . . . . . . . . . . . . . App. 58

App. 1

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Nos. 18-3145 & 18-3153
[Filed October 24, 2019]
_____________________________
JOHN W. KIMBROUGH,
)
Petitioner-Appellee/
)
Cross-Appellant,
)
)
v.
)
)
)
RON NEAL,
Respondent-Appellant/ )
Cross-Appellee.
)
_____________________________ )
Appeals from the United States District Court for the
Southern District of Indiana, Indianapolis Division.
No. 1:16-cv-1729 — William T. Lawrence, Judge.
____________________
ARGUED SEPTEMBER 10, 2019 —
DECIDED OCTOBER 24, 2019
____________________
Before WOOD, Chief Judge, and KANNE and
BRENNAN, Circuit Judges.
BRENNAN, Circuit Judge. John Kimbrough was
convicted in Indiana state court of molesting two young

App. 2
girls on multiple occasions. The trial court sentenced
Kimbrough to 80 years in prison, which was ultimately
affirmed on appeal. Kimbrough sought post-conviction
relief based on ineffective assistance of appellate
counsel. Specifically, Kimbrough cited his attorney’s
failure to object to his 80-year sentence under Indiana
Appellate Rule 7(B), which allows an appellate court to
revise an inappropriate sentence.
The Indiana Court of Appeals rejected Kimbrough’s
ineffective assistance claim, concluding as a matter of
state law that he was not entitled to relief. The district
court disagreed and granted Kimbrough’s petition for
a writ of habeas corpus. Because a federal court
considering a habeas petition under 28 U.S.C. § 2254(d)
cannot disagree with a state court’s resolution of a
state law issue, we reverse.
I. BACKGROUND
Kimbrough dated the mother of a five-year-old
daughter, a seven-year-old daughter, and a son with
cerebral palsy. Eventually, the daughters revealed
Kimbrough had molested them for nearly two years.
The State of Indiana charged Kimbrough with four
counts of child molestation. The jury found Kimbrough
guilty on all counts. Kimbrough was sentenced to 40
years on each count. Counts I and II were ordered to be
served concurrently. Counts III and IV were also
ordered to be served concurrently but consecutive to
Counts I and II, for a total of 80 years. When imposing
the sentence, the state judge considered the nature of
Kimbrough’s conduct, his lack of criminal history, and
Kimbrough’s abuse of a position of trust.

App. 3
On direct appeal, Kimbrough argued the evidence
was insufficient to sustain his conviction, the trial
court’s jury instructions were erroneous, and the trial
court abused its discretion in imposing the 80-year
sentence. Notably, Kimbrough’s appellate counsel
never challenged his sentence under Indiana Appellate
Rule 7(B), which allows the court to “revise a sentence
[if] the Court finds that the sentence is inappropriate
in light of the nature of the offense and the character of
the offender.” IND. APP. R. 7(B). Although the Indiana
Court of Appeals rejected some of his arguments, a
split panel did sua sponte reduce his sentence to 40
years under Rule 7(B).1 Kimbrough v. State, 2012 WL
983147, at *5 (Ind. Ct. App. Mar. 21, 2012)
(“Kimbrough I”). The Indiana Supreme Court vacated
Kimbrough I, holding Rule 7(B) should not have been
invoked sua sponte. Kimbrough v. State, 979 N.E.2d
625, 629–30 (Ind. 2012) (“Kimbrough II”).
Kimbrough then sought post-conviction relief in the
Indiana trial court, arguing his appellate counsel was
ineffective for failing to challenge the 80-year sentence
under Rule 7(B). The trial court denied his request, as
did the Indiana Court of Appeals, which concluded, “if
the [Kimbrough I] majority had engaged in a full Rule
7(B) analysis with the benefit of argument and analysis
from the State, it would not have found Kimbrough’s
1

While the majority presumably rested its decision on Rule 7(B),
it did not expressly cite that rule and reviewed the case for an
abuse of discretion. The dissent considered the case as if it was
decided under that rule, concluding that a Rule 7(B) argument
should be rejected because Kimbrough was not entitled to a
revision of his sentence given the nature of his crimes and his
failure to assert the rule.

App. 4
sentence inappropriate.” Kimbrough v. State, 2016 WL
112394, at *5 (Ind. Ct. App. Jan. 11, 2016) (“Kimbrough
III”). In Kimbrough III, the court stated further:
“Kimbrough has not established that there is a
reasonable probability that, if appellate counsel had
made a Rule 7(B) challenge, the result of the
proceeding would have been different.” Id. Because
Kimbrough was not entitled to relief under Rule 7(B),
he failed to establish prejudice. Kimbrough then
petitioned for transfer to the Indiana Supreme Court.
His petition was denied.
As a last resort, Kimbrough sought a writ of habeas
corpus from the district court, arguing his appellate
counsel was ineffective under Strickland v.
Washington, 466 U.S. 668 (1984), for failing to
challenge his sentence as inappropriate under Indiana
Rule 7(B). To establish ineffective assistance of counsel
under Strickland, a petitioner must show: (1) counsel
rendered deficient performance that (2) prejudiced the
petitioner. 466 U.S. at 687. Granting Kimbrough’s
petition, the district court found that the court in
Kimbrough III unreasonably applied Strickland when
it concluded Kimbrough was not prejudiced by
counsel’s performance. The district court compared the
opposite conclusions in Kimbrough I and Kimbrough III
and held that “[b]ecause two panels of the Indiana
Court of Appeals utilized their discretion to reach
opposite conclusions,” Kimbrough necessarily had a
reasonable probability of success on a Rule 7(B)
argument and had satisfied Strickland’s prejudice
prong. The state appealed.

App. 5
II. DISCUSSION
The “pivotal question” here is whether the court in
Kimbrough III unreasonably applied Strickland. See
Harrington v. Richter, 562 U.S. 86, 101 (2011). Because
the Indiana Court of Appeals addressed whether
Kimbrough has established prejudice, we must decide
whether that state court’s decision “was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme
Court of the United States.” Antiterrorism and
Effective Death Penalty Act (“AEDPA”), 28 U.S.C.
§ 2254(d)(1). When a case falls under § 2254(d)(1), we
review the state court decision de novo to determine
the legal question of whether the decision is contrary to
clearly established federal law. See Denny v.
Gudmanson, 252 F.3d 896, 900 (7th Cir. 2001); see also
Morris v. Bartow, 832 F.3d 705, 709 (7th Cir. 2016)
(“We review de novo the district court’s treatment of
legal issues, and we review findings of fact for clear
error.”). We consider the “last reasoned opinion on the
claim,” here the decision of the Indiana Court of
Appeals in Kimbrough III. See, e.g., Woolley v.
Rednour, 702 F.3d 411, 421 (7th Cir. 2012). As the last
reasoned opinion on the claim, Kimbrough III is
entitled to AEDPA deference.
Because Strickland requires Kimbrough to show a
reasonable probability that he would have obtained
relief if his counsel had raised a Rule 7(B) argument,
the Rule 7(B) inquiry underlies the Strickland analysis.
Kimbrough must show the Indiana Court of Appeals
decision was “so lacking in justification that there was
an error well understood and comprehended in existing

App. 6
law beyond any possibility for fairminded
disagreement.” Harrington, 562 U.S. at 103. This is a
“difficult” and “highly deferential” standard. Id. at 105.
Kimbrough argues the state court’s decision in
Kimbrough III unreasonably applied federal law. But
the Indiana Court of Appeals decision was not based on
federal law. It rests on the conclusion that, as a matter
of state law, it would have been futile to contest the
sentence’s length on appeal because the 80-year
sentence is not “inappropriate in light of the nature of
the offense and the character of the offender.”
Kimbrough III, 2016 WL 112394, at *4–5. For federal
habeas relief here under § 2254(d)(1), the state court’s
decision must be an unreasonable application of federal
law—not a state court’s resolution of a state law issue.
See, e.g., Bradshaw v. Richey, 546 U.S. 74, 76 (2005)
(“We have repeatedly held that a state court’s
interpretation of state law … binds a federal court
sitting in habeas corpus.”); Estelle v. McGuire, 502 U.S.
62, 67–68 (1991) (“Today, we reemphasize that it is not
the province of a federal habeas court to reexamine
state-court determinations on state-law questions.”);
Miller v. Zatecky, 820 F.3d 275, 277 (7th Cir. 2016) (“A
federal court cannot disagree with a state court’s
resolution of an issue of state law.”).
This case is nearly identical to Miller v. Zatecky,
which Kimbrough asks this court to overrule. In this
case and Miller, the petitioner raised a Strickland
claim due to appellate counsel’s failure to raise an
Indiana Rule 7(B) argument. In each case, the Indiana
Court of Appeals rejected the claim because the
petitioner failed to establish that his sentence was

App. 7
inappropriate under Rule 7(B) and would have been
reduced if appellate counsel had raised the Rule 7(B)
issue on direct appeal. Compare Miller v. State, 2013
WL 1210524, at *6 (Ind. Ct. App. Mar. 26, 2013), with
Kimbrough III, 2016 WL 112394, at *5. Neither case
was based on federal law. Like Miller, Kimbrough III
“rests on a conclusion that, as a matter of state law, it
would have been futile to contest the sentence’s length
on appeal, because a 120-year sentence [here, an 80year sentence] is not ‘inappropriate in light of the
nature of the offense and the character of the
offender.’” Miller v. Zatecky, 820 F.3d at 277. The
Indiana Court of Appeals’ conclusion that appellate
review of Kimbrough’s sentence would not have helped
him as a matter of state law is “the sort of decision
§ 2254 leaves to the state judiciary.” Id. Miller controls,
and Kimbrough has not provided a compelling reason
to overrule it.
Kimbrough argues Miller cannot coexist with Shaw
v. Wilson, 721 F.3d 908 (7th Cir. 2013), and Jones v.
Zatecky, 917 F.3d 578 (7th Cir. 2019). In those cases,
this court granted habeas relief based on the attorneys’
failure to object to untimely amendments to their
charges under Indiana law. We were concerned with
Indiana attorneys ignoring the clear text of the Indiana
statute and allowing prosecutors to make untimely
amendments. Jones, 917 F.3d at 580. That is not the
situation here. Neither Shaw nor Jones reviewed a
state law determination of the post-conviction court.
See Shaw, 721 F.3d at 918 (“[W]e are not resolving any
issue of state law.”); Jones, 917 F.3d at 583 (“Jones’s
case does not require us to resolve any question of state
law.”). Indeed, Shaw and Jones confirm we are bound

App. 8
by the state court’s resolution of a state law question.
See Shaw, 721 F.3d at 914; Jones, 917 F.3d at 581–83.
We find no conflict between these cases and decline to
overrule Miller.
Kimbrough has not shown the Indiana Court of
Appeals unreasonably applied federal law. Under the
AEDPA’s deferential standard, the court’s decision in
Kimbrough III was not “so lacking in justification that
there was an error well understood and comprehended
in existing law beyond any possibility for fairminded
disagreement.” Harrington, 562 U.S. at 103.
III. CONCLUSION
We REVERSE the district court’s grant
Kimbrough’s petition for a writ of habeas corpus.2

2

of

Case No. 18-3153, Kimbrough’s cross-appeal, challenges whether
the district court properly granted habeas relief by issuing a
conditional order requiring the State of Indiana to either release
Kimbrough or grant him a new appeal. Because Kimbrough is not
entitled to habeas relief, we decline to address his cross-appeal.

App. 9

APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
No. 1:16-cv-01729-WTL-DML
[Filed September 6, 2018]
__________________________
JOHN W. KIMBROUGH,
)
)
Petitioner,
)
)
v.
)
)
RON NEAL,
)
)
Respondent.
)
__________________________ )
Entry Discussing Motion to
Alter or Amend Judgment
Petitioner John Kimbrough has moved to alter or
amend the judgment in this case pursuant to Rule 59(e)
of the Federal Rules of Civil Procedure. In his petition
for a writ of habeas corpus, Mr. Kimbrough argued that
his counsel was constitutionally ineffective for failing
to challenge his sentence under Indiana Appellate Rule
7(B), which permits an Indiana appellate court to
revise a sentence if it is inappropriate, and that the
Indiana courts unreasonably applied federal law in not

App. 10
finding ineffectiveness. The Court agreed, granted Mr.
Kimbrough’s petition, and ordered that he be permitted
to file a new direct appeal. In his motion to alter or
amend, Mr. Kimbrough argues that a new direct appeal
is not the appropriate relief.
“Rule 59(e) allows a court to amend a judgment only
if the petitioner can demonstrate a manifest error of
law or present newly discovered evidence.” Heyde v.
Pittenger, 633 F.3d 512, 521 (7th Cir. 2011) (internal
quotation omitted); United States v. Resnick, 594 F.3d
562, 568 (7th Cir. 2010). “A manifest error is not
demonstrated by the disappointment of the losing
party. It is the wholesale disregard, misapplication, or
failure to recognize controlling precedent.” Oto v.
Metropolitan Life Ins. Co., 224 F.3d 601, 606 (7th Cir.
2000) (internal quotations omitted). “Relief under Rules
59(e) and 60(b) are extraordinary remedies reserved for
the exceptional case….” Foster v. DeLuca, 545 F.3d 582,
584 (7th Cir. 2008).
Mr. Kimbrough argues, like he argued in his
petition, that the Indiana Court of Appeals has held
that the proper relief when ineffective assistance of
appellate counsel is found is to vacate the conviction
and sentence. See Montgomery v. State, 21 N.E.3d 846,
857 (Ind. Ct. App. 2014). But, as this Court already
explained, the ruling in Montgomery rested on the
premise that if appellate counsel had not performed
deficiently, the defendant would have been likely to
have succeeded on appeal and been entitled to a new
trial. Id. at 855. In contrast, this Court found that
Kimbrough’s appellate counsel was ineffective for
failing to properly challenge his sentence. The only

App. 11
logical relief based on this ruling is the opportunity to
make this argument to the Court of Appeals. See Shaw
v. Wilson, 721 F.3d 908, 919 (7th Cir. 2013); United
States v. Nagib, 44 F.3d 619, 623 (7th Cir. 1995) (“If
appellate counsel renders ineffective assistance, . . . the
proper remedy is to allow a new appeal.”). Mr.
Kimbrough also argues that equity requires that the
Court not direct a new appeal, but direct that Mr.
Kimbrough receive a new sentencing hearing or the
sentence he would have received had the ruling by the
Indiana Court of Appeals in his direct appeal not been
vacated. But, as this Court has already explained, the
proper remedy is a new appeal where the argument the
Court found should have been made is presented. In
short, Mr. Kimbrough has demonstrated no manifest
error of law. Accordingly, the motion to alter or amend
the judgment, Dkt. No. 22, is denied.
Mr. Kimbrough further requests that if his motion
to alter or amend the judgment is denied, this Court
grant him a certificate of appealability. Pursuant to
§ 2253(c)(2), a certificate of appealability may issue
“only if the applicant has made a substantial showing
of the denial of a constitutional right.” Such a showing
includes demonstrating “that reasonable jurists could
debate whether . . . the petition should have been
resolved in a different manner or that the issues
presented were adequate to deserve encouragement to
proceed further.” Slack v. McDaniel, 529 U.S. 473, 484
(2000) (citation and quotation marks omitted). Here,
Mr. Kimbrough has not made such a showing and a
certificate of appealability is denied.
IT IS SO ORDERED.

App. 12
/s/ William T. Lawrence
Hon. William T. Lawrence, Judge
United States District Court
Southern District of Indiana
Date: 9/6/18
Distribution:
Michael K. Ausbrook
mausbrook@gmail.com
Chandra Hein
INDIANA ATTORNEY GENERAL
chandra.hein@atg.in.gov

App. 13

APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
No. 1:16-cv-01729-WTL-DML
[Filed November 30, 2017]
__________________________
JOHN W. KIMBROUGH,
)
)
Petitioner,
)
)
v.
)
)
RON NEAL,
)
)
Respondent.
)
__________________________ )
Entry Granting Petition
for a Writ of Habeas Corpus
Petitioner John Kimbrough was convicted of child
molesting in an Indiana state court. He is currently
serving an eighty-year sentence for this crime.
Kimbrough seeks a writ of habeas corpus arguing that
his appellate counsel was ineffective for failing to
challenge his sentence as inappropriate.
For the reasons explained in this Entry,
Kimbrough’s petition for a writ of habeas corpus is
granted.

App. 14
I. Factual and Procedural Background
District court review of a habeas petition presumes
all factual findings of the state court to be correct,
absent clear and convincing evidence to the contrary.
See Daniels v. Knight, 476 F.3d 426, 434 (7th Cir.
2007).
In Kimbrough’s post-conviction appeal, the Indiana
Court of Appeals restated the facts as follows:
In January 2009, Kimbrough began dating A.D.
(Mother), who introduced Kimbrough to her
three children: J.L., a daughter born in 2003;
A.D., a daughter born in 2004; and A.D.L., a son
who had cerebral palsy. The couple and the
children did many things together as a family,
and Kimbrough continued to have a relationship
with the children even after his romantic
relationship with Mother ended in the spring of
2010. In October 2010, Mother noticed that J.L.
and A.D. were acting as though they were scared
and were hiding something. Eventually, the
children told Mother that Kimbrough had
touched them inappropriately on multiple
occasions. The children revealed that Kimbrough
had placed his penis on or in their genitalia and
anal areas, had licked and touched their
genitalia, and had coerced the children into
masturbating him. The molestations occurred on
multiple occasions over a time period spanning
nearly two years.
Kimbrough v. State, 2016 WL 112394 (Ind. Ct. App.
Jan. 11, 2016) (Kimbrough III). Kimbrough was

App. 15
convicted of four counts of child molesting as Class A
felonies. He was sentenced to 40 years in prison for
each count. Counts I and II were ordered served
concurrently to one another, as were Counts III and IV;
Counts III and IV were ordered to be served
consecutively to Counts I and II, for a total sentence of
80 years.
In his direct appeal, a split panel of the Court of
Appeals cut Kimbrough’s sentence in half to 40 years.
Kimbrough v. State, 2012 WL 983147 (Ind. Ct. App.
Mar. 12, 2012) (Kimbrough I). It did so under
apparently Indiana Appellate Rule 7(B), which permits
an Indiana appellate court to revise a sentence if it is
inappropriate; and it did so without Kimbrough’s
counsel referring to Rule 7(B), even though he
challenged the sentence. This ruling was vacated by
the Indiana Supreme Court on the State of Indiana’s
petition to transfer. Kimbrough v. State, 979 N.E.2d
625 (Ind. 2012) (Kimbrough II). Because Kimbrough
had made no request for a sentence reduction under
Appellate Rule 7(B), the Indiana Supreme Court said,
the Court of Appeals should not have granted relief
under the rule. Id. at 629-30.
Kimbrough then sought post-conviction relief in the
trial court arguing that his appellate counsel was
ineffective for failing to argue that his sentence was
inappropriate under Rule 7(B). The motion for postconviction relief was denied and the Indiana Court of
Appeals affirmed. Kimbrough III, 2016 WL 112394.
Kimbrough now seeks a writ of habeas corpus from this
Court.

App. 16
II. Applicable Law
Under the Anti-Terrorism and Effective Death
Penalty Act (AEDPA), a federal court may grant
habeas relief if the petitioner demonstrates that he is
in custody “in violation of the Constitution or laws . . .
of the United States.” 28 U.S.C. § 2254(a). Review
under AEDPA is limited. “[T]he inmate must show, so
far as bears on this case, that the state court which
convicted him unreasonably applied a federal doctrine
declared by the United States Supreme Court.”
Redmond v. Kingston, 240 F.3d 590 (7th Cir. 2001)
(citing 28 U.S.C. § 2254(d)(1); Guys v. Taylor, 529 U.S.
362 (2000); Morgan v. Krenke, 232 F.3d 562 (7th Cir.
2000)). “A state-court decision involves an
unreasonable application of this Court’s clearly
established precedents if the state court applies this
Court’s precedents to the facts in an objectively
unreasonable manner.” Brown v. Payton, 544 U.S. 131,
141 (2005) (internal citations omitted). “The habeas
applicant has the burden of proof to show that the
application of federal law was unreasonable.” Harding
v. Sternes, 380 F.3d 1034, 1043 (7th Cir. 2004) (citing
Woodford v. Visciotti, 537 U.S. 19, 25 (2002)).
As previously noted, Kimbrough contends that his
appellate counsel was ineffective. A defendant has a
right under the Sixth Amendment to effective
assistance of counsel. See Strickland v. Washington,
466 U.S. 668, 687 (1984). When the deferential AEDPA
standard is applied to a Strickland claim, the following
calculus emerges:
Establishing that a state court’s application of
Strickland was unreasonable under § 2254(d) is

App. 17
. . . difficult. The standards created by
Strickland and § 2254(d) are both “highly
deferential,” [Strickland] at 689, 104 S. Ct. 2052;
Lindh v. Murphy, 521 U.S. 320, 333, n.7 (1997),
and when the two apply in tandem, review is
“doubly” so, Knowles, 556 U.S. at 123. The
Strickland standard is a general one, so the
range of reasonable applications is substantial.
556 U.S. at 123. Federal habeas courts must
guard against the danger of equating
unreasonableness under Strickland with
unreasonableness under § 2254(d). When
§ 2254(d) applies, the question is not whether
counsel’s actions were reasonable. The question
is whether there is any reasonable argument
that counsel satisfied Strickland’s deferential
standard.
Harrington v. Richter, 562 U.S. 86, 105 (2011).
III. Discussion
Kimbrough claims that his appellate counsel was
ineffective for failing to argue on direct appeal that his
eighty-year sentence was inappropriate under
Rule 7(B) of the Indiana Rules of Appellate Procedure.
A defendant has a right under the Sixth
Amendment to effective assistance of counsel. See
Strickland, 466 U.S. at 687. For a petitioner to
establish that “counsel’s assistance was so defective as
to require reversal,” he must make two showings:
(1) that counsel rendered deficient performance that
(2) prejudiced the petitioner. Id. With respect to the
performance requirement, “[t]he proper measure of

App. 18
attorney performance remains simply reasonableness
under prevailing professional norms.” Wiggins v.
Smith, 539 U.S. 510, 521 (2003) (quoting Strickland,
466 U.S. at 688). “[T]o establish prejudice, a ‘defendant
must show that there is a reasonable probability that,
but for counsel’s unprofessional errors, the result of the
proceeding would have been different.’” Id. at 534
(quoting Strickland, 466 U.S. at 694).
The Indiana Court of Appeals in Kimbrough III
addressed only the prejudice prong of Strickland,
concluding that it was not met. The parties dispute
whether Kimbrough can establish both elements of his
ineffective assistance of counsel claim, so the Court will
address each in turn.
A. Performance
Because the Kimbrough III court did not reach
Strickland’s ineffectiveness prong, the Court reviews
this issue de novo. Porter v. McCollum, 558 U.S. 30, 38
(2009); Rompilla v. Beard, 545 U.S. 374, 390 (2005).
“Appellate lawyers are not required to present every
nonfrivolous claim on behalf of their clients—such a
requirement would serve to bury strong arguments in
weak ones—but they are expected to ‘select[] the most
promising issues for review.’” Shaw v. Wilson, 721 F.3d
908, 915 (7th Cir. 2013) (quoting Jones v. Barnes, 463
U.S. 745, 752-53 (1983)). “For this reason, if [the
petitioner’s appellate counsel] abandoned a
nonfrivolous claim that was both ‘obvious’ and ‘clearly
stronger’ than the claim that he actually presented, his
performance was deficient, unless his choice had a
strategic justification.” Id.; see Sanders v. Cotton, 398

App. 19
F.3d 572, 585 (7th Cir. 2005). “This standard is difficult
to meet because the comparative strength of two claims
is usually debateable.” Shaw, 721 F.3d at 915.
Appellate counsel’s performance is assessed “from the
perspective of a reasonable attorney at the time of [the]
appeal, taking care to avoid the distorting effects of
hindsight.” Id. (citation and quotation marks omitted);
see also Lockhart v. Fretwell, 506 U.S. 364, 372 (1993).
Kimbrough argues that his appellate lawyer
performed deficiently by failing to argue for a sentence
reduction under Rule 7(B). According to Kimbrough,
this argument was obvious. See Shaw, 721 F.3d at 915.
As Kimbrough points out, his appellate lawyer did
challenge his sentence, but only as an abuse of
discretion and not as inappropriate under Rule 7(B).
Moreover, the Kimbrough I court, by sua sponte
reducing his sentence under Rule 7(B), recognized the
significance and obviousness of such an argument.1 A

1

Kimbrough explains that his appellate lawyer has regularly
failed to argue that a defendant’s sentence is inappropriate under
Rule 7(B) and he has been reprimanded for this failure. In re
Schlesinger, 53 N.E.3d 417, 417 (Ind. 2016); see also Marcus v.
State, 27 N.E.3d 1134 (Ind. Ct. App. 2015) (striking Schlesinger’s
brief and remanding the appeal for the appointment of competent
counsel after Schlesinger had failed to realize that the “manifestly
unreasonable” standard of former Indiana Appellate Rule 17 had
been replaced by the appropriateness standard of Rule 7(B) in
2003). “An attorney’s ignorance of a point of law that is
fundamental to his case combined with his failure to perform basic
research on that point is a quintessential example of unreasonable
performance under Strickland.” Hinton v. Alabama, 134 S. Ct.
1081, 1089 (2014). This principle applies “with equal force to
appeals.” Vinyard v. United States, 804 F.3d 1218, 1225 (7th Cir.
2015).

App. 20
challenge to the sentence under Rule 7(B) was,
therefore, obvious.
Kimbrough goes on to contend that this argument
was stronger than any of the arguments his lawyer
actually made. Counsel made three arguments on
direct appeal. First, Kimbrough’s lawyer argued that
the evidence of penetration had been insufficient. But
that argument was weak because there had been direct
evidence of penetration. The Kimbrough I court
therefore treated the argument as a request to reweigh
the evidence, which is for the jury, not the Court of
Appeals to do. Kimbrough I, Slip. Op. at 6. Next,
Kimbrough’s lawyer argued that the trial court erred in
instructing the jury on the definition of the female sex
organ. The Court of Appeals dismissed this argument
as waived for failure to present any cogent argument.
Id. at 7. The court then went on to conclude that there
was no error in giving the instruction. Id. at 8. Finally,
Kimbrough’s appellate lawyer challenged his sentence
as an abuse of discretion. He argued that the trial court
had not given sufficient weight to the mitigating
circumstance that Kimbrough had no criminal history
and had considered improper aggravating
circumstances.
As the Kimbrough I court explained in rejecting this
argument, once a trial court has identified aggravating
and mitigating circumstances, the relative weight given
to them is not subject to review for abuse of discretion.
Id. at 8-9. In addition, counsel’s challenge to the
consideration of the age of the victims as an
aggravating circumstance was weak because the
victims were approximately five years old and seven

App. 21
years old and extreme youth can support an enhanced
sentence. Id. at 10. Kimbrough’s lawyer also challenged
the aggravating circumstance that the abuse had
occurred on multiple occasions over almost two years.
But the record supported that finding. In other words,
Kimbrough’s counsel challenged his sentence, but only
on grounds that were highly unlikely to provide relief.
This Court agrees with Kimbrough that the arguments
raised by his appellate counsel, which were easily
rejected by the Indiana Court of Appeals, were feeble.
The respondent argues that the unraised claim –
that Kimbrough’s sentence is inappropriate under
Rule 7(B) – was not clearly stronger than the
arguments that were raised. According to the
respondent, any challenge to Kimbrough’s sentence
under Rule 7(B) was unlikely to succeed because
Kimbrough’s convictions rendered him eligible to
receive a 200- year sentence, Ind. Code 35-50-2-4 (2011)
(50-year maximum sentence for a class A felony), the
minimum sentence for Kimbrough’s convictions was 20
years, Ind. Code 35-50-2-2(b)(4)(H) (current version at
Ind. Code 35-50-2-2.2(d)), and an 80-year sentence is
not an outlier for a person convicted of multiple counts
of Class A felony child molestation. The respondent
finally contends that a challenge under Rule 7(B) would
open the door to allow the State to ask the appellate
courts to increase the sentence by revising it upward.
See McCullough v. State, 900 N.E.2d 745, 750 (Ind.
2009).
This Court concludes that the unraised Rule 7(B)
argument was clearly stronger than the arguments
that appellate counsel raised. As discussed above, the

App. 22
challenges that appellate counsel raised on appeal – a
challenge to the sufficiency of the evidence, an
undeveloped, and thus waived, challenge to a jury
instruction, and a challenge to sentencing factors that
were clearly reasonable – were weak at best. The fact
that the Kimbrough I court sua sponte reduced his
sentence as inappropriate demonstrates that an
argument under Rule 7(B) would have been stronger
than the other, unsuccessful, arguments that counsel
did make.
To the extent that the respondent contends that a
Rule 7(B) challenge would have been risky because the
Court of Appeals could have decided to increase
Kimbrough’s sentence, such a ruling would have been
unlikely at best. Kimbrough points out, and the
respondent does not dispute, that since McCullough
was decided, the Indiana Court of Appeals has
increased a sentence only once, and in that case, the
Indiana Supreme Court reinstated the original
sentence. Akard v. State, 937 N.E.2d 811, 814 (Ind.
2010); accord McCullough, 900 N.E.2d at 753 (Boehm,
J. concurring) (“It seems highly unlikely that in
practice Indiana’s appellate courts will frequently
exercise their power to increase a sentence.”).
In short, a challenge to Kimbrough’s sentence under
Rule 7(B) was obvious and stronger than the
arguments Kimbrough’s appellate counsel raised.
Counsel’s performance was therefore deficient when he
did not raise it.

App. 23
B. Prejudice
The second prong of Strickland asks whether the
defense was prejudiced as a result of counsel’s errors.
To establish prejudice under Strickland, “the defendant
must show that there is a reasonable probability that,
but for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable
probability is a probability sufficient to undermine
confidence in the outcome.” 466 U.S. at 694. In other
words, there is Strickland prejudice when the chances
of a different result are “better than negligible.” United
States ex rel. Hampton v. Liebach, 347 F.3d 219, 246
(7th Cir. 2003). “Because of AEDPA an extra layer of
deference enters the picture: [the court] will defer to
the Indiana appellate court’s determination that [the
petitioner] received effective assistance of counsel
unless that determination is contrary to, or an
unreasonable application of, clearly established
Supreme Court precedent . . . .” Shaw, 721 F.3d at 914
(citing Harrington, 131 S.Ct. at 783-84). “An
application of Supreme Court precedent is reasonable
– even if wrong in [the court’s] view – so long as
fairminded jurists could disagree over its correctness.”
Id.
Kimbrough argues that the fact that the Kimbrough
I court did in fact modify his sentence under Rule 7(B)
shows that he had a better than negligible chance of
succeeding had his attorney argued for a sentence
reduction under Rule 7(B). The respondent replies that,
on review of his petition for post-conviction relief, the
Kimbrough III court reasonably concluded that it
would not have modified Kimbrough’s sentence and,

App. 24
thus, that Kimbrough did not establish prejudice. The
respondent also argues that the Kimbrough I court did
not really revise his sentence under Rule 7(B) and that
the Strickland analysis is objective and should not be
tied to the idiosyncrasies of the particular decisionmaker.
To determine whether a defendant has been
prejudiced under Strickland, a court asks only whether
the defendant would have had a “reasonable
probability” of success, not whether he definitively
would or would not have succeeded. Shaw, 721 F.3d at
918. Review under Rule 7(B) is discretionary. Knapp v.
State, 9 N.E.3d 1274, 1291-92 (Ind. 2014). Thus, the
Kimbrough III court’s determination that it would not
have reduced his sentence does not necessarily compel
a conclusion that Kimbrough did not have a reasonable
probability of success on the merits of a Rule 7(B)
challenge. See United States ex rel. Hampton v.
Leibach, 347 F.3d 219, 246 (7th Cir. 2003). (A
“reasonable probability” is a “better than negligible”
chance.).
The Seventh Circuit held in Miller v. Zatecky, 820
F.3d 275 (7th Cir. 2016), that when the state court has
determined an issue of state law, a federal court cannot
review it. But even if the conclusion of the
Kimbrough III court that, as a matter of state law, it
would not have reduced Kimbrough’s sentence provided
a basis to conclude that Kimbrough did not have a
reasonable chance of success on appeal, this
determination cannot be considered in a vacuum. This
is because the Kimbrough I court, applying the same
state law that the Kimbrough III court applied, reached

App. 25
the opposite conclusion. Because two panels of the
Indiana Court of Appeals utilized their discretion to
reach opposite conclusions, Kimbrough necessarily had
a “better than negligible” chance of success on a Rule
7(B) argument. The Kimbrough III court’s conclusion
that he did not is an unreasonable application of
Strickland because it incorrectly asked how it would
have resolved the issue, not, as required by Strickland,
whether a Rule 7(B) challenge would have had a
reasonable likelihood of success. See Strickland, 466
U.S. at 694.
The respondent suggests that the ruling of the
Kimbrough I to reduce Kimbrough’s sentence has no
bearing on whether Kimbrough would have had a
chance of success on his Rule 7(B) argument because
that court did not undergo a Rule 7(B) analysis. But a
review of the state court opinions belies this conclusion.
Under Indiana Appellate Rule 7(B), “[t]he Court may
revise a sentence authorized by statue if, after due
consideration of the trial court’s decision, the court
finds that the sentence is inappropriate in light of the
nature of the offense and the character of the offender.”
The majority opinion in Kimbrough I addressed the
nature of the offenses and aspects of Kimbrough’s
character. Slip. Op. at 2-4. In reducing Kimbrough’s
sentence, it considered the aggravating circumstances
found by the trial court, which included Kimbrough’s
relationship of trust with the victims and their young
age. Slip. Op. at 9-10. The Kimbrough I majority also
noted Kimbrough’s lack of criminal history. Id. at 10.
The court concluded: “Focusing on the appropriateness
of the sentence and not the weight given to individual
aggravating or mitigating factors, we find the trial

App. 26
court abused its discretion.” Slip op. at 10 (emphasis
added).
Further, the dissenting judge in Kimbrough I first
pointed out that the appellate court’s authority to
reverse a sentencing decision is restricted as long as
the trial court has identified reasons for the sentence
that are not improper. Slip Op. at 14. “Because
Kimbrough advances no argument under Appellate
Rule 7(B) concerning the nature of the offense or his
character, I would not reach the issue of the
appropriateness of his sentence.” Id. at 14. He then
when on to state: “[b]ut even assuming that it is proper
to analyze Kimbrough’s sentence under Appellate Rule
7(B) sua sponte, I would conclude that his sentence was
not inappropriate.” Id. He then provided a thorough
analysis of the sentence under Rule 7(B). Slip. Op. at
Id. at 14-18. There would, of course, be no reason to do
this if the majority was not modifying the sentence
under that Rule.
This conclusion is placed beyond doubt by the fact
that, on the petition to transfer, the Indiana Supreme
Court in Kimbrough II treated the ruling as a ruling
under Rule 7(B). That Indiana Supreme Court stated:
This brings us to the Court of Appeals’
declaration that it was “focusing on the
appropriateness of the sentence.” Although not
cited by the majority, this language implicates
Indiana Appellate Rule (7)(B) which provides
“[t]he Court may revise a sentence authorized by
statute if, after due consideration of the trial
court’s decision, the Court finds that the

App. 27
sentence is inappropriate in light of the nature
of the offense and the character of the offender.”
Kimbrough v. State, 979 N.E.2d 625, 629 (Ind. 2012).
The court vacated the Kimbrough I court’s ruling
because “Kimbrough made no such request and
therefore there was no issue in this regard to be
considered by a reviewing court.” Id. In other words,
the Indiana Supreme Court said that appellate counsel
did not raise a Rule 7(B) claim on direct appeal, so the
court was wrong to raise it sua sponte. The respondent
is therefore incorrect that the Kimbrough I court did
not make a Rule 7(B) determination.
Having found that the Kimbrough III court
unreasonably applied Strickland, this Court must
review the claim de novo, this requires the Court to
determine whether it is at least “reasonably likely the
result would have been different” if appellate counsel
had not failed to ask for revision under Rule 7(B). See
Harrington, 562 U.S. at 111-112 (“Strickland asks
whether it is ‘reasonably likely’ the result would have
been different. This does not require a showing that
counsel’s actions ‘more likely than not altered the
outcome.’”). As noted above, because the Kimbrough I
court sua sponte concluded that a Rule 7(B) reduction
was appropriate, it follows that Kimbrough would have
had a reasonable chance of success on this argument.
Kimbrough therefore has established prejudice from
his counsel’s deficient performance.
Because Kimbrough has established deficient
performance on his counsel’s part and prejudice from
that performance, he has demonstrated his entitlement

App. 28
to relief because of ineffective assistance of appellate
counsel.
C. Appropriate Relief
The parties also disagree regarding the appropriate
relief. Kimbrough argues that he is entitled to a new
sentencing hearing, while the respondent contends that
he is entitled only to a new appeal. Kimbrough points
out that the Indiana Court of Appeals has held that the
proper relief when ineffective assistance of appellate
counsel is found is to vacate the conviction and
sentence. See Montgomery v. State, 21 N.E.3d 846, 857
(Ind. Ct. App. 2014). But the ruling in that case rested
on the premise that if appellate counsel had not
performed deficiently, the defendant would have been
likely to have succeeded on appeal and been entitled to
a new trial. Id. at 855. This Court has found that
Kimbrough’s appellate counsel was ineffective for
failing to argue that his sentence was inappropriate.
The only logical relief based on this ruling is the
opportunity to make this argument to the Court of
Appeals. See Shaw, 721 F.3d at 919; United States v.
Nagib, 44 F.3d 619, 623 (7th Cir. 1995) (“If appellate
counsel renders ineffective assistance, . . . the proper
remedy is to allow a new appeal.”). Accordingly, that is
the relief that will be granted.
IV. Conclusion
For the foregoing reasons, Mr. Kimbrough’s petition
for a writ of habeas corpus is granted. The State of
Indiana shall vacate any and all criminal penalties
stemming from Mr. Kimbrough’s convictions in Case
No. 45G04-1011-FA-48 and release him from its

App. 29
custody pursuant to that conviction unless the State of
Indiana grants Mr. Kimbrough a new appeal in the
Indiana Court of Appeals as to that conviction within
45 days after issuance of final judgment in this case.
The respondent shall notify the Court when this order
has been complied with.
Judgment consistent with this Entry shall now
issue.
IT IS SO ORDERED.
/s/ William T. Lawrence
Hon. William T. Lawrence, Judge
United States District Court
Southern District of Indiana
Date: 11/30/17
Distribution:
Michael K. Ausbrook
mausbrook@gmail.com
Chandra Hein
INDIANA ATTORNEY GENERAL
chandra.hein@atg.in.gov

App. 30
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
No. 1:16-cv-01729-WTL-DML
[Filed November 30, 2017]
__________________________
JOHN W. KIMBROUGH,
)
)
Petitioner,
)
)
v.
)
)
RON NEAL,
)
)
Respondent.
)
__________________________ )
FINAL JUDGMENT
Consistent with the Order issued this day, John
Kimbrough’s petition for a writ of habeas corpus is
granted. The State of Indiana shall vacate any and all
criminal penalties stemming from Mr. Kimbrough’s
convictions in Case No. 45G04-1011-FA-48 and release
him from its custody pursuant to that conviction unless
the State of Indiana grants Mr. Kimbrough a new
appeal in the Indiana Court of Appeals as to that
conviction within 45 days after issuance of final
judgment in this case.
/s/ William T. Lawrence
Hon. William T. Lawrence, Judge
United States District Court
Southern District of Indiana

App. 31
Date: 11/30/17
Laura Briggs, Clerk
BY:/s/
Deputy Clerk, U.S. District Court
Distribution:
Electronically registered counsel

App. 32

APPENDIX D
Pursuant to Ind. Appellate Rule 65(D), this
Memorandum Decision shall not be regarded as
precedent or cited before any court except for the
purpose of establishing the defense of res judicata,
collateral estoppel, or the law of the case.
IN THE COURT OF APPEALS OF INDIANA
Court of Appeals Case No. 45A05-1506-PC-687
[Filed January 11, 2016]
_______________________
John W. Kimbrough, III, )
Appellant-Defendant,
)
)
v.
)
)
State of Indiana,
)
Appellee-Plaintiff
)
_______________________ )
Appeal from the Lake Superior Court
The Honorable Samuel L. Cappas, Judge
The Honorable Natalie Bokota, Magistrate
Trial Court Cause No. 45G04-1312-PC-15
MEMORANDUM DECISION

App. 33
ATTORNEYS FOR APPELLANT
Stephen T. Owens
Public Defender of Indiana
Katherine Province
Deputy Public Defender
Indianapolis, Indiana
ATTORNEYS FOR APPELLEE
Gregory F. Zoeller
Attorney General of Indiana
Ellen H. Meilaender
Deputy Attorney General
Indianapolis, Indiana
Baker, Judge.
[1]

John Kimbrough, III, appeals the denial of his
petition for post-conviction relief, arguing that
the post-conviction court erroneously determined
that Kimbrough did not receive ineffective
assistance of appellate counsel. Finding no error,
we affirm.
FACTS
Underlying Facts

[2]

In January 2009, Kimbrough began dating A.D.
(Mother), who introduced Kimbrough to her
three children: J.L., a daughter born in 2003;
A.D., a daughter born in 2004; and A.D.L., a son
who had cerebral palsy. The couple and the
children did many things together as a family,
and Kimbrough continued to have a relationship

App. 34
with the children even after his romantic
relationship with Mother ended in the spring of
2010. In October 2010, Mother noticed that J.L.
and A.D. were acting as though they were scared
and were hiding something. Eventually, the
children told Mother that Kimbrough had
touched them inappropriately on multiple
occasions. The children revealed that Kimbrough
had placed his penis on or in their genitalia and
anal areas, had licked and touched their
genitalia, and had coerced the children into
masturbating him. The molestations occurred on
multiple occasions over a time period spanning
nearly two years.
[3]

On November 5, 2010, the State charged
Kimbrough with four counts of class A felony
child molestation and two counts of class C
felony child molestation. On May 5, 2011, a jury
found Kimbrough guilty as charged. Due to
double jeopardy concerns, the trial court entered
judgments of conviction only on the four class A
felony convictions. On May 3, 2011, the trial
court imposed forty-year sentences on each of
those four convictions; the court ran the
sentences on Counts I and II concurrently, ran
the sentences on Counts III and IV concurrently,
but ran those two sets of sentences
consecutively, resulting in an aggregate sentence
of eighty years imprisonment.
Direct Appeal: Court of Appeals

[4]

Kimbrough appealed to this Court, raising the
following arguments: (1) there was insufficient

App. 35
evidence to support the convictions; (2) the trial
court erred in giving one of the jury instructions;
and (3) the trial court abused its discretion when
sentencing Kimbrough by failing to give
sufficient weight to his lack of a prior criminal
history. Kimbrough v. State, No. 45A04-1106CR-328 (Ind. Ct. App. Mar. 21, 2012), vacated by
Kimbrough v. State, 979 N.E.2d 625 (Ind. 2012).
After dispensing with the first two arguments,
this Court turned to the sentencing argument.
The Court found that the trial court had not
abused its discretion because it had found
Kimbrough’s lack of a prior criminal history to
be a mitigating circumstance. The Court went
on, however, to hold as follows:
Focusing on the appropriateness of the
sentence and not the weight given to
individual aggravating or mitigating
factors, we find that the trial court
abused its discretion. While we
acknowledge the existence of the
aggravating circumstances, an aggregate
sentence of eighty years for a defendant
with no criminal history is clearly against
the logic and effect of the facts and
circumstances before the trial court.
Given the existence of this substantial
mitigating factor, a sentence of twenty
years on Counts I and II, with a
consecutive sentence of twenty years for
Counts I and IV, for an aggregate
sentence of forty years is supported by the
evidence. We reverse the trial court’s

App. 36
sentencing order and remand to the trial
court to enter an order imposing the
sentence outlined above.
Id. at *5 (emphasis added).
[5]

Judge Mathias dissented in part from the
majority opinion. First, he noted that because
the trial court did not abuse its discretion in
sentencing Kimbrough, appellate review is
limited to Indiana Appellate Rule 7(B). Judge
Mathias concluded that “[b]ecause Kimbrough
advances no argument under Appellate Rule
7(B) concerning the nature of the offense or his
character, I would not reach the issue of the
appropriateness of his sentence.” Id. at *6. Next,
Judge Mathias engaged in a Rule 7(B) analysis
and concluded that even if we were to consider
the aggregate eighty-year sentence in light of
the nature of the offenses and Kimbrough’s
character, the sentence is not inappropriate. Id.
He therefore parted ways with the majority’s
decision to revise Kimbrough’s sentence
downward. Id.
Direct Appeal: Our Supreme Court

[6]

Kimbrough sought, and our Supreme Court
granted, transfer. It summarily affirmed this
Court’s decision on the first two issues and then
addressed sentencing. Kimbrough, 979 N.E.2d at
628. First, the Kimbrough Court held that the
trial court had not abused its discretion because
it had, in fact, considered the lack of criminal
history to be a mitigator. Our Supreme Court

App. 37
emphasized that a trial court cannot be said to
have abused its discretion in the way in which it
weighs aggravators and mitigators. Id. at 629.
Next, the Kimbrough Court turned to this
Court’s “appropriateness” analysis:
This brings us to the Court of Appeals’
declaration that it was “focusing on the
appropriateness of the sentence.”
Although not cited by the majority, this
language implicates Indiana Appellate
Rule (7)(B) which provides “[t]he Court
may revise a sentence authorized by
statute if, after due consideration of the
trial court’s decision, the Court finds that
the sentence is inappropriate in light of
the nature of the offense and the
character of the offender.” Even though a
trial court may have acted within its
lawful discretion in determining a
sentence, Article 7, Sections 4 and 6 of the
Indiana Constitution “authorize [ ]
independent appellate review and
revision of a sentence imposed by the trial
court.” Buchanan, 767 N.E.2d at 972.
This appellate authority is implemented
through Rule (7)(B). First, we agree with
Judge Mathias who in dissent noted “a
request for sentence revision under
Appellate Rule (7)(B) is not truly a claim
of sentencing error. Rather, it is a request
for [the] court to exercise its
constitutional authority to revise a
lawfully entered sentence.” Kimbrough,

App. 38
No. 45A04–1106–CR–328, slip op. at 14
n.3 (citation omitted). Further, and
importantly, in his brief before the Court
of Appeals Kimbrough did not seek
sentencing revision, did not cite to or rely
upon Appellate Rule (7)(B) and thus said
nothing about the nature of the offenses
or his character. As we have declared “a
defendant must persuade the appellate
court that his or her sentence has met
this inappropriateness standard of
review.” Childress v. State, 848 N.E.2d
1073, 1080 (Ind. 2006). Here Kimbrough
made no attempt to do so. “When a
defendant requests appellate review and
revision of a criminal sentence pursuant
to authority derived from Article 7,
Sections 4 or 6 of the Indiana
Constitution ... the reviewing court is
presented with the issue of whether to
affirm, reduce, or increase the sentence.”
McCullough v. State, 900 N.E.2d 745, 750
(Ind. 2009) (emphasis added). Kimbrough
made no such request and therefore there
was no issue in this regard to be
considered by a reviewing court. In
summary, because the trial court
correctly entered its sentencing statement
in compliance with the dictates of
Anglemyer and because the
“appropriateness” of a sentence has no
bearing on whether a sentence is
erroneous, the trial court did not abuse its
discretion in imposing Kimbrough’s

App. 39
sentence. Further, Kimbrough did not
seek review and revision of his sentence
under Indiana Appellate Rule (7)(B).
Id. at 629-30 (internal citations omitted).
Finally, our Supreme Court “note[d] in passing
that in his dissent Judge Mathias also observed
that Kimbrough advanced no argument under
Appellate Rule 7(B) and thus he would not have
reached the issue of the appropriateness of
Kimbrough’s sentence. Nonetheless, Judge
Mathias undertook a thorough analysis of the
nature of Kimbrough’s offenses and his
character and concluded that Kimbrough’s
sentence was not inappropriate.” Id. at 630 n.1.
Post-Conviction Relief
[7]

On December 17, 2013, Kimbrough filed a pro se
petition for post-conviction relief, and on
September 29, 2014, he filed an amended
petition by counsel. Kimbrough’s sole argument
is that he received the ineffective assistance of
appellate counsel based on counsel’s failure to
include a Rule 7(B) argument in his direct
appeal. Following an evidentiary hearing, the
post-conviction court denied Kimbrough’s
petition on May 29, 2015. In relevant part, the
post-conviction court found and concluded as
follows:
7. . . . The Appellate Judges who
comprised the majority on direct appeal
did not undertake an App. R. 7(B)
analysis of Kimbrough’s sentence. They

App. 40
did not assess the nature of the offense or
the character of the offender, but Judge
Mathias did in his dissenting opinion.
Therefore, the only appellate judge who
undertook an App. R. 7(B) analysis
determined that the sentence was not
inappropriate. We conclude from this that
if Appellate Counsel had raised a claim
under App. R. 7(B), a majority of the
reviewing judges would reach the same
conclusion Judge Mathias reached and
hold that the sentence was not
inappropriate.
***
9. We conclude that Kimbrough was not
prejudiced by Appellate Counsel’s failure
to raise a 7(B) claim on direct appeal
because to have done so would not have
gained Kimbrough a revised sentence.
Appellant’s App. p. 80-81. Kimbrough now
appeals.
Discussion and Decision
I. Standard of Review
[8]

The general rules regarding the review of a
ruling on a petition for post-conviction relief are
well established:
“The petitioner in a post-conviction
proceeding bears the burden of
establishing grounds for relief by a

App. 41
preponderance of the evidence.” Fisher v.
State, 810 N.E.2d 674, 679 (Ind. 2004).
“When appealing from the denial of postconviction relief, the petitioner stands in
the position of one appealing from a
negative judgment.” Id. To prevail on
appeal from the denial of post-conviction
relief, a petitioner must show that the
evidence as a whole leads unerringly and
unmistakably to a conclusion opposite
that reached by the post-conviction court.
Weatherford v. State, 619 N.E.2d 915, 917
(Ind. 1993). Further, the post-conviction
court in this case made findings of fact
and conclusions of law in accordance with
Indiana Post–Conviction Rule 1(6).
Although we do not defer to the postconviction court’s legal conclusions, “[a]
post-conviction court’s findings and
judgment will be reversed only upon a
showing of clear error—that which leaves
us with a definite and firm conviction that
a mistake has been made.” Ben–Yisrayl v.
State, 729 N.E.2d 102, 106 (Ind. 2000)
(quotation omitted).
Hollowell v. State, 19 N.E.3d 263, 268-69 (Ind.
2014).
[9]

Kimbrough’s sole argument on appeal is that the
post-conviction court erroneously determined
that he did not receive the ineffective assistance
of appellate counsel. To establish ineffective
assistance of appellate counsel, the petitioner

App. 42
must show that (1) appellate counsel was
deficient in his or her performance, and (2) the
deficiency resulted in prejudice. Id. at 269.
Failure to satisfy either prong will cause the
claim to fail. Henley v. State, 881 N.E.2d 639,
644 (Ind. 2008). To satisfy the second prong, the
defendant must show a reasonable probability
that, but for counsel’s errors, the result of the
proceeding would have been different. Id.
II. Assistance of Appellate Counsel
[10]

Kimbrough argues that his appellate counsel’s
failure to challenge his sentence on Rule 7(B)
grounds resulted in prejudice. In making this
argument, he relies on this Court’s opinion that
was ultimately overturned. Kimbrough reasons
that because this Court revised his sentence
downward on 7(B) grounds, and our Supreme
Court overturned that decision only because the
argument was not raised, that he was
necessarily prejudiced by its omission. We
cannot agree.

[11]

Initially, we note that this Court did not have
the benefit of argument or analysis on the Rule
7(B) issue from the State. We now have the
benefit of that argument and analysis, and as
explored below, are persuaded that this Court
would have reached a different result had the
issue been fully briefed. Furthermore, we echo
the reasoning of the post-conviction court, which
emphasized that the Kimbrough majority did
not engage in any sort of Rule 7(B) analysis.
Instead, only Judge Mathias did so, and—as

App. 43
emphasized by our Supreme Court—he
“undertook a thorough analysis of the nature of
Kimbrough’s offenses and his character and
concluded that Kimbrough’s sentence was not
inappropriate.” Kimbrough, 979 N.E.2d at 630.
[12]

Following in Judge Mathias’s footsteps, and with
the benefit of full briefing on the issue, we now
consider whether Kimbrough’s sentence was
inappropriate. Indiana Appellate Rule 7(B)
provides that this Court may revise a sentence
if it is inappropriate in light of the nature of the
offense and the character of the offender. We
must “conduct [this] review with substantial
deference and give ‘due consideration’ to the
trial court’s decision—since the ‘principal role of
[our] review is to attempt to leaven the outliers,’
and not to achieve a perceived ‘correct’ sentence
. . . .” Knapp v. State, 9 N.E.3d 1274, 1292 (Ind.
2014) (quoting Chambers v. State, 989 N.E.2d
1257, 1259 (Ind. 2013)) (internal citations
omitted).

[13]

Kimbrough was convicted of four class A
felonies. For each conviction, he faced a term of
twenty to fifty years, with an advisory term of
thirty years. Ind. Code § 35-50-2-4.1 The trial
court imposed a term of forty years
imprisonment for each conviction—ten greater
than the advisory term but ten less than the
maximum. It ran two of the terms consecutively,

1

We apply the version of the sentencing statutes in place at the
time Kimbrough committed the offenses.

App. 44
as has been found appropriate when there are
multiple victims. See Serino v. State, 798 N.E.2d
852, 857 (Ind. 2003) (holding that “when the
perpetrator commits the same offense against
two victims, enhanced and consecutive sentences
seem necessary to vindicate the fact that there
were separate harms and separate acts against
more than one person”).
[14]

As for the nature of the offenses, Kimbrough
repeatedly molested two very young
victims—seven-year-old J.L. and five-year-old
A.D. The molestations occurred on multiple
occasions and over a time period spanning
nearly two years. Kimbrough continued to
molest A.D. after she asked him to stop and he
instructed her not to tell anyone. Moreover, in
molesting the girls, Kimbrough violated a
position of significant trust. The couple and the
children did many things together as a family,
and he routinely drove the girls to school and
helped them with their homework. Finally, at
sentencing, Kimbrough expressed no remorse for
his actions, instead casting himself as the victim
and blaming the girls’ parents for his
involvement in the girls’ lives.

[15]

As for Kimbrough’s character, we certainly note
his lack of a prior criminal history, as did the
trial court. As noted by Judge Mathias, however,
“Kimbrough’s abuse of his position of trust with
respect to J.L. and A.D. reflects very negatively
on his character.” Kimbrough, No. 45A04-1106CR-328, *9. Furthermore, at the time of

App. 45
sentencing in this matter, there was an active
warrant for Kimbrough’s arrest for failure to
appear on a driving while suspended charge, and
he was also facing charges of class B felony
criminal confinement, class C felony
intimidation, class D felony criminal
confinement, and class D felony residential
entry. Kimbrough had also violated the terms of
his pretrial release granted by another court in
a separate case. We hasten to emphasize that
Kimbrough was only in his mid-twenties. It is
therefore apparent that, while he had no prior
convictions, he had not been leading a lawabiding life since becoming an adult a few short
years before the molestations.
[16]

Given this evidence concerning Kimbrough’s
character, combined with the evidence regarding
the nature of the offenses—including the
presence of multiple victims, their young ages,
the ongoing nature of his crimes, and his abuse
of a position of trust—we are persuaded that if
the Kimbrough majority had engaged in a full
Rule 7(B) analysis with the benefit of argument
and analysis from the State, it would not have
found Kimbrough’s sentence inappropriate. In
other words, Kimbrough has not established
that there is a reasonable probability that, if
appellate counsel had made a Rule 7(B)
challenge, the result of the proceeding would
have been different. Therefore, he has failed to
establish prejudice as a result of the omission of
this argument in his direct appeal. The post-

App. 46
conviction court did not err by denying
Kimbrough’s petition for post-conviction relief.
[17]

The judgment of the post-conviction court is
affirmed.
Bradford, J., and Pyle, J., concur.

App. 47

APPENDIX E
IN THE INDIANA SUPREME COURT
No. 45S04-1212-CR-687
[Filed December 19, 2012]
___________________________________
JOHN KIMBROUGH, III,
)
Appellant (Defendant below),
)
)
v.
)
)
STATE OF INDIANA,
)
Appellee (Plaintiff below).
)
___________________________________ )
Appeal from the Lake Superior Court,
No. 45G04-1011-FA-48
The Honorable Kathleen Sullivan, Judge
_________________________________
On Petition To Transfer from the Indiana Court of
Appeals, No. 45A04-1106-CR-328
_________________________________
ATTORNEY FOR APPELLANT
P. Jeffrey Schlesinger
Appellate Public Defender
Crown Point, Indiana
ATTORNEYS FOR APPELLEE
Gregory F. Zoeller
Attorney General of Indiana

App. 48
Gary R. Rom
Deputy Attorney General
Indianapolis, Indiana
Rucker, Justice.
Defendant John W. Kimbrough was convicted of
multiple counts of child molesting and sentenced to an
aggregate term of eighty years. Concluding the trial
court abused its sentencing discretion the Court of
Appeals remanded this cause with instructions to
impose an aggregate term of forty years. We grant
transfer and affirm the judgment of the trial court.
Facts and Procedural History
The facts most favorable to the verdicts follow.
Mother and Kimbrough began dating in January 2009.
Later that summer, Mother introduced Kimbrough to
her children, including her daughters, J.L. born
January 2003 and A.D. born July 2004. The couple and
children began to function as a family, even staying at
hotels together to allow the children to swim in the
hotel pools. Kimbrough often drove the girls to school
and helped with their homework. In the spring of 2010,
the relationship ended. Nonetheless Mother continued
to allow Kimbrough to take the children to school
because they loved Kimbrough and Mother trusted
him.
The evidence showed that in October 2010, Mother
observed that J.L. “seemed as if she was hiding
something” or “as if she was scared.” Tr. at 105. A.D.
reluctantly told Mother that her vagina hurt and the
girls eventually stated that Kimbrough had touched
them both inappropriately. On October 30, 2010, law

App. 49
enforcement was contacted. That same day, both girls
were taken to the emergency room of the local hospital
where a physician—Dr. Kathryn Watts—examined
each child. Later that same evening Kimbrough was
arrested. On November 5, 2010, the State charged
Kimbrough with four counts of child molesting as Class
A felonies and two counts of child molesting as Class C
felonies.
A jury trial began on May 5, 2011, during which
both A.D. and J.L. testified regarding specific
encounters with Kimbrough. A.D. testified that she had
a front and a back private part and said that she called
her private part a “cootie cat” but she didn’t have a
name for Kimbrough’s private part. Tr. at 178. A.D.
testified that while they stayed at the hotels
Kimbrough stuck his private part in her front cootie cat
and her backside and he would lick her cootie cat. She
later detailed that Kimbrough put his private part in
her cootie cat while they were present in the basement
of Kimbrough’s home. A.D. said that when Kimbrough
touched her, she told Kimbrough to stop and he
responded, “No.” Tr. at 204. A.D. also testified that her
sister was always with her when these acts occurred
and that she saw Kimbrough stick his private part into
her sister’s cootie cat as well.
J.L. testified that Kimbrough touched her in her
private part and in the back with his private part more
than once. She also said that he put his finger in her
private part and he put his private part in her private
part. She identified the female pubic area from
sketches as the female private part and identified a
drawing that she made, which she characterized as a

App. 50
picture of Kimbrough’s private part. J.L. testified that
these touchings occurred at the hotel and in the
basement of Kimbrough’s home.
Dr. Watts also testified at trial noting that during
her examination of the two girls she found a small
break in J.L.’s hymen, which may have resulted from
sexual assault. Dr. Watts further explained that she
had discovered redness around A.D.’s vaginal openings
and approximately a one-centimeter tear in A.D.’s
hymen. Dr. Watts explained that such tears are not
unusual but these types of openings may result from
sexual abuse. Dr. Watts also stated that penetration
may cause redness around the vaginal openings. In
addition, Dr. Watts testified as to the composition of
the female sex organ. According to Dr. Watts:
[t]he female sex organ is many parts that we
would consider. Goes all the way from the outer
labia. In the vaginal lips is what . . . people
would call them in the lay terms all the way up
into the uterus. So the vaginal vault, the clitoris.
It is all that area, outside and internal.
Tr. at 310. She also testified that “[t]he female organs
make up the entire female genitalia.” Tr. at 310.
During final instructions the trial court advised the
jury: “‘[f]emale sex organ’ includes any part of the
female sex organ, including the vaginal vault, labia
and[/]or the external genitalia.” App. at 72. At the
conclusion of a four-day trial, the jury found
Kimbrough guilty as charged on all counts. Apparently
due to double jeopardy concerns the trial court merged
the Class C felonies into the Class A felonies and

App. 51
entered judgments of conviction on the Class A felonies
only. Running some of the sentences concurrently and
others consecutively, the trial court sentenced
Kimbrough to an aggregate term of eighty years.
Kimbrough appealed raising the following rephrased
issues: (1) was the evidence sufficient to sustain the
convictions, (2) did the trial court err in instructing the
jury on the definition of female sex organ, and (3) did
the trial court abuse its discretion in sentencing
Kimbrough.
In an unpublished memorandum decision, the Court
of Appeals affirmed Kimbrough’s convictions. However,
a divided panel concluded the trial court abused its
discretion in sentencing Kimbrough and remanded this
cause to the trial court with instructions to impose an
aggregate term of forty years. See Kimbrough v. State,
No. 45A04-1106-CR-328, slip op. at 10-11 (Ind. Ct. App.
March 21, 2012). We grant transfer thereby vacating
the decision of the Court of Appeals. See Appellate Rule
58(A). We address Kimbrough’s sentencing claim and
summarily affirm that portion of the Court of Appeals’
decision concerning Kimbrough’s remaining claims.
Additional facts are set forth below as necessary.
Discussion
In Anglemyer v. State this Court emphasized that
subject to the review and revise authority afforded by
Indiana Appellate Rule 7(B) “sentencing decisions rest
within the sound discretion of the trial court and are
reviewed on appeal only for an abuse of discretion.” 868
N.E.2d 482, 490 (Ind. 2007), (citation omitted), clarified
on other grounds on reh’g 875 N.E.2d 218. The Court
gave a few examples for ways in which a trial court

App. 52
may abuse its discretion: (1) failing to enter a
sentencing statement, (2) entering a sentencing
statement that explains reasons for imposing the
sentence but the record does not support the reasons,
(3) the sentencing statement omits reasons that are
clearly supported by the record and advanced for
consideration, or (4) the reasons given in the
sentencing statement are improper as a matter of law.
Anglemyer, 868 N.E.2d at 490-91. We noted, however,
that because of the then new statutory scheme “the
trial court no longer has any obligation to ‘weigh’
aggravating and mitigating factors against each other
when imposing a sentence” and thus “a trial court can
not now be said to have abused its discretion in failing
to ‘properly weigh’ such factors.” Id. at 491. The Court
continued, “this is so because once the trial court has
entered a sentencing statement, which may or may not
include the existence of aggravating and mitigating
factors, it may then ‘impose any sentence that is . . .
authorized by statute; and . . . permissible under the
Constitution of the State of Indiana.’” Id. at 491
(quoting I.C. § 35-38-1-7.1(d)).
In this case, on appeal Kimbrough argued the trial
court abused its discretion in sentencing him because
(1) the trial court considered the age of the victims even
though an element of the offense was that the victims
were under the age of fourteen, and (2) the trial court
considered that the offenses were committed on
multiple occasions. On this latter point Kimbrough
contends there was no evidence to support this factor.
Citing his lack of criminal history Kimbrough
requested that the reviewing court “recognize that his
mitigating circumstances outweighed aggravating ones

App. 53
and remand with instructions to enter a lesser
sentence.” Br. of Appellant at 14.
Addressing Kimbrough’s sentencing claim the Court
of Appeals correctly noted that even where the age of
the victim is an element of the offense, the very young
age of a child can support an enhanced sentence as a
particularized circumstance of the crime. See
Buchanan v. State, 767 N.E.2d 967, 971 (Ind. 2002)
(finding it proper for a trial court to rely upon the age
of a victim of child molesting when the trial court noted
that victim was of particularly “tender years”). Here
the trial court noted the victims were approximately
five and seven years of age when the molestations first
began to occur. The Court of Appeals also correctly
pointed out that the evidence supported the conclusion
that the molestations occurred over a nearly two-year
period between January 2009 and October 2010. In
sum the Court of Appeals correctly concluded that the
trial court did not abuse its discretion in the finding of
aggravating factors. Thus, in Anglemyer terms, the
trial court entered a reasonably detailed sentencing
statement that explained the trial court’s reasons for
imposing the sentence and the record supported those
reasons. See Anglemyer 868 N.E.2d at 490. However,
asserting a “duty . . . to ‘correct sentencing errors, sua
sponte, if necessary,’” Kimbrough, No. 45A04-1106-CR328, slip op. at 10 (quoting Comer v. State, 839 N.E.2d
721, 726 (Ind. Ct. App. 2005) (noting trial court abused
its sentencing discretion by relying on an aggravating
factor not supported by the record)), and observing that
lack of criminal history is a substantial mitigating
factor, the Court of Appeals majority determined that
the trial court abused its discretion by imposing an

App. 54
eighty-year sentence. Although declaring that it was
“[f]ocusing on the appropriateness of the sentence and
not the weight given to individual aggravating or
mitigating factors,” Kimbrough, No. 45A04-1106-CR328, slip op. at 10, the majority nonetheless concluded
“the existence of this substantial mitigating factor”
justified a forty-year aggregate sentence and remanded
this cause to the trial court “to enter an order imposing
the sentence outlined above.” Id.
We disagree with our colleagues for several reasons.
First, it is certainly true that a trial court may abuse
its discretion where the sentencing statement omits
reasons that are clearly supported by the record and
advanced for consideration. See Anglemyer, 868 N.E.2d
at 490-91. But in this case the trial court’s sentencing
statement did not omit consideration of Kimbrough’s
lack of a criminal history. Instead the statement
specifically noted as a mitigating factor that
Kimbrough “has no history of delinquency or criminal
activity.” App. at 94. Thus, even assuming without
deciding that in this post-Anglemyer era appellate
courts have a “duty . . . to correct sentencing errors, sua
sponte,” Comer, 839 N.E. 2d at 726, we fail to see how
the sentence here was erroneous on grounds that the
trial court omitted a reason supported by the record.
Second, by describing Kimbrough’s lack of criminal
history as a “substantial mitigating factor,” and
remanding this case with instructions to impose a
reduced sentence, the Court of Appeals majority
implicitly suggested the trial court should have given
greater weight to this factor. But Anglemyer makes
clear that when imposing a sentence a trial court “no
longer has any obligation to ‘weigh’ aggravating and

App. 55
mitigating factors against each other” and thus “a trial
court can not now be said to have abused its discretion
in failing to ‘properly weigh’ such factors.” Anglemyer,
868 N.E.2d at 491. Here, the trial court did in fact
weigh aggravating and mitigating factors giving more
weight to three aggravators than the sole mitigator.
And the trial court cannot be said to have abused its
discretion in so doing. See id. Thus on this ground the
trial court also did not abuse its discretion in imposing
Kimbrough’s sentence.
This brings us to the Court of Appeals’ declaration
that it was “focusing on the appropriateness of the
sentence.” Although not cited by the majority, this
language implicates Indiana Appellate Rule (7)(B)
which provides “[t]he Court may revise a sentence
authorized by statute if, after due consideration of the
trial court’s decision, the Court finds that the sentence
is inappropriate in light of the nature of the offense and
the character of the offender.” Even though a trial court
may have acted within its lawful discretion in
determining a sentence, Article 7, Sections 4 and 6 of
the Indiana Constitution “authorize[ ] independent
appellate review and revision of a sentence imposed by
the trial court.” Buchanan, 767 N.E.2d at 972. This
appellate authority is implemented through Rule
(7)(B). First, we agree with Judge Mathias who in
dissent noted “a request for sentence revision under
Appellate Rule (7)(B) is not truly a claim of sentencing
error. Rather, it is a request for [the] court to exercise
its constitutional authority to revise a lawfully entered
sentence.” Kimbrough, No. 45A04-1106-CR-328, slip op.
at 14 n.3 (citation omitted). Further, and importantly,
in his brief before the Court of Appeals Kimbrough did

App. 56
not seek sentencing revision, did not cite to or rely
upon Appellate Rule (7)(B) and thus said nothing about
the nature of the offenses or his character. As we have
declared “a defendant must persuade the appellate
court that his or her sentence has met this
inappropriateness standard of review.” Childress v.
State, 848 N.E.2d 1073, 1080 (Ind. 2006). Here
Kimbrough made no attempt to do so. “When a
defendant requests appellate review and revision of a
criminal sentence pursuant to authority derived from
Article 7, Sections 4 or 6 of the Indiana Constitution
. . . the reviewing court is presented with the issue of
whether to affirm, reduce, or increase the sentence.”
McCullough v. State, 900 N.E.2d 745, 750 (Ind. 2009)
(emphasis added). Kimbrough made no such request
and therefore there was no issue in this regard to be
considered by a reviewing court.
In summary, because the trial court correctly
entered its sentencing statement in compliance with
the dictates of Anglemyer and because the
“appropriateness” of a sentence has no bearing on
whether a sentence is erroneous, the trial court did not
abuse its discretion in imposing Kimbrough’s sentence.
Further, Kimbrough did not seek review and revision
of his sentence under Indiana Appellate Rule (7)(B).1
1

We note in passing that in his dissent Judge Mathias also
observed that Kimbrough advanced no argument under Appellate
Rule 7(B) and thus he would not have reached the issue of the
appropriateness of Kimbrough’s sentence. Nonetheless, Judge
Mathias undertook a thorough analysis of the nature of
Kimbrough’s offenses and his character and concluded that
Kimbrough’s sentence was not inappropriate. See Kimbrough,
No. 45A04-1106-CR-328, slip op. at 13, 15-17.

App. 57
Conclusion
We affirm the judgment of the trial court.
Dickson, C.J., and David, Massa and Rush, JJ., concur.

App. 58

APPENDIX F
Pursuant to Ind.Appellate Rule 65(D), this
Memorandum Decision shall not be regarded as
precedent or cited before any court except for the
purpose of establishing the defense of res judicata,
collateral estoppel, or the law of the case.
IN THE COURT OF APPEALS OF INDIANA
No. 45A04-1106-CR-328
[Filed March 21, 2012]
__________________________
JOHN W. KIMBROUGH,
)
)
Appellant-Defendant,
)
)
vs.
)
)
STATE OF INDIANA,
)
)
Appellee-Plaintiff.
)
__________________________ )
APPEAL FROM THE LAKE SUPERIOR COURT
The Honorable Kathleen Sullivan, Judge
Cause No. 45G04-1011-FA-48
MEMORANDUM DECISION NOT FOR PUBLICATION

App. 59
ATTORNEY FOR APPELLANT:
P. JEFFREY SCHLESINGER
Appellate Public Defender
Crown Point, Indiana
ATTORNEYS FOR APPELLEE:
GREGORY F. ZOELLER
Attorney General of Indiana
GARY R. ROM
Deputy Attorney General
Indianapolis, Indiana
FRIEDLANDER, Judge
John W. Kimbrough (Kimbrough) appeals after a
jury trial resulting in his convictions and sentence for
four counts of class A felony Child Molesting.1
Kimbrough presents the following restated issues for
our review:
1. Was there sufficient evidence of penetration
to support Kimbrough’s child molesting
convictions?
2. Did the trial court err in its instruction
defining female sex organ?
3. Did the trial court abuse its discretion when
sentencing Kimbrough?
We affirm in part, reverse in part, and remand.

1

Ind. Code Ann. §35-42-4-3 (West, Westlaw current through 2011
1st Reg. Sess.).

App. 60
A.D. (Mother) began dating Kimbrough in January
2009. After approximately six months of dating, Mother
introduced Kimbrough to her three children: J.L., a
daughter who was born in January 2003, A.D., a
daughter who was born in July 2004, and A.D.L., a son
who suffered from cerebral palsy. The couple and the
children did many things as a family, including staying
at hotels to swim at the pool and staying at a casino
hotel. Kimbrough routinely drove the children to school
and helped them with their homework. When Mother
and Kimbrough ended their relationship in the spring
of 2010, Mother continued to allow Kimbrough to take
the children to school. Mother did so because she
trusted Kimbrough and the children loved him. At the
time, Kimbrough lived in the basement of his
grandparents’ house.
On the evening of October 29, 2010, Mother thought
that J.L. appeared to be hiding something and acted
scared. A.D. also acted like she did not want to talk,
but ultimately told Mother that her vagina was
hurting. Mother asked the two if anyone had touched
them “down there” and after Mother’s questioning for
a third time, J.L. and A.D. indicated that Kimbrough
had touch them inappropriately. Transcript at 136. J.L.
was the one who brought up Kimbrough’s name.
Kimbrough had picked the girls up from school early
that day and had the children alone the previous
weekend.
J.L. called her vagina a “private” and A.D. called
hers a “cootie cat.” Transcript at 148. Kimbrough would
put baby oil on his penis prior to touching J.L. and A.D.
A.D. said that Kimbrough would put his private area

App. 61
against hers and her sister’s and that he would stick
his private part in her “cootie cat.” Kimbrough also
licked A.D.’s vagina. While in the basement at
Kimbrough’s grandparents’ house, Kimbrough put his
private area up in A.D.’s “cootie cat.” A.D. also observed
Kimbrough putting his private area up in J.L.’s “cootie
cat.” When A.D. told Kimbrough to stop, he refused.
Instead, Kimbrough would say no and instruct A.D. not
to tell anyone what had happened.
Kimbrough also touched J.L. in her “private” and in
the back with his private part. He would put his
private part up in J.L.’s private part and would
sometimes stick his penis in J.L.’s back side. J.L.
observed Kimbrough touching A.D. Kimbrough touched
J.L. more than once with his penis and used his fingers
to touch J.L. inside her “private.” J.L. saw Kimbrough
masturbating and then ejaculating. Kimbrough asked
J.L. to touch his penis and she complied. The touching
occurred both at the hotel and in the basement of
Kimbrough’s grandparents’ house.
On October 30, 2010, law enforcement officers were
contacted and Mother took the girls to the emergency
room for examination. Each girl was examined by Dr.
Kathryn Watts, and both girls told her that Kimbrough
had rubbed his penis against their vaginas and touched
their vaginas with his hands. Both A.D. and J.L. denied
full penetration, or full insertion of the penis inside the
vaginal vault. During the physical examination, Dr.
Watts found a small break in J.L.’s hymen, but the
break was not fresh because there was no bleeding.
According to Dr. Watts, a break such as that can be
found in cases of sexual abuse and can heal in one or

App. 62
two weeks. A.D. told Dr. Watts that her vagina was
hurting. Upon examination, Dr. Watts discovered that
A.D. had redness around her vaginal openings and
about a one centimeter tear in her hymen. According to
Dr. Watts while such an opening is not unusual, it can
be found in cases of sexual abuse. Further, redness can
also be caused by penetration. J.L. and A.D. were later
interviewed by an officer at the family assistance
bureau center.
On the evening of October 30, 2010, Kimbrough
went to the residence of Sabrina Clark, his cousin.
Kimbrough, who was scared, told his cousin to close the
doors. Clark asked Kimbrough what was going on and
he eventually said that he might be in trouble and that
it was all his fault. Kimbrough also told Clark that he
wanted to end his life. Clark pleaded with Kimbrough
not to end his life. Police officers responded minutes
later to Clark’s residence and apprehended Kimbrough.
The State charged Kimbrough with four counts of
class A felony child molesting and two counts of class
C felony child molesting. At the conclusion of
Kimbrough’s four-day jury trial, he was found guilty as
charged. The trial court did not enter a judgment of
conviction on the two counts of class C felony child
molesting. The trial court did enter judgments of
conviction as to the remaining counts and sentenced
Kimbrough to an aggregate sentence of eighty years
imprisonment. Kimbrough now appeals.
1.
Kimbrough argues that there is insufficient
evidence of penetration to support his convictions of

App. 63
two counts of child molesting by performing sexual
intercourse.2 When reviewing the sufficiency of the
evidence needed to support a criminal conviction, we
neither reweigh evidence nor reassess witness
credibility. Henley v. State, 881 N.E.2d 639 (Ind. 2008).
We consider only the evidence supporting the
conviction and any reasonable inferences that can be
drawn from such evidence. Id. We will affirm if there is
substantial evidence of probative value such that a
reasonable trier of fact could have concluded the
defendant was guilty beyond a reasonable doubt. Id.
“Sexual intercourse” is defined by statute as “an act
that includes any penetration of the female sex organ
by the male sex organ.” Ind. Code Ann. § 35-41-1-26
(West, Westlaw current through 2011 1st Reg. Sess.).
Thus, the State was required to prove penetration in
order to obtain a conviction for the crime as charged.
We have previously stated as follows:
Moreover, a conviction for child molesting will be
sustained when it is apparent from the
circumstances and the victim’s limited
vocabulary that the victim described an act
which involved penetration of the sex organ. The
unfamiliarity of a young victim with anatomical
terms does not make her incompetent to testify
when the facts are explained in simple or
childlike language which the judge and jury can
understand. Also, a detailed anatomical

2

Kimbrough does not challenge the sufficiency of the evidence to
support his convictions of two counts of class A felony child
molesting by performing deviate sexual conduct with J.L. and A.D.

App. 64
description of penetration is unnecessary. Proof
of the slightest penetration is sufficient to
sustain convictions for child molesting. Indeed,
our statute defining sexual intercourse does not
require that the vagina be penetrated, only that
the female sex organ, including the external
genitalia, be penetrated.
Smith v. State, 779 N.E.2d 111, 115 (Ind. Ct. App.
2002) (internal citations omitted).
The present case differs from the evidence
presented in Spurlock v. State, 675 N.E.2d 312 (Ind.
1996), where the evidence was deemed insufficient to
support the conviction. In Spurlock, the victim testified
that the defendant tried to put his penis inside of her,
but that she was unsure if he did so. Here, J.L. and
A.D. each testified that Kimbrough put his private part
up in their respective “privates.” Although the girls
denied that penetration had occurred when asked by
the doctor, their descriptions of the conduct involved
are sufficient to support the jury’s determination that
penetration did occur. In addition, Dr. Watts testified
that during her examination of each of the girls she
found symptoms and physical evidence that could have
been caused by sexual abuse or penetration. Weighing
of the evidence and assessment of the credibility of the
witnesses was for the jury to determine. Henley v.
State, 881 N.E.2d 639. We decline Kimbrough’s
invitation to reweigh the evidence and reassess witness
credibility. We find no error here.

App. 65
2.
Kimbrough also argues that the trial court erred by
instructing the jury on the definition of female sex
organ. It is well established that instructing the jury is
within the discretion of the trial court. White v. State,
846 N.E.2d 1026 (Ind. Ct. App. 2006). Jury instructions
are to be considered as a whole and in reference to each
other. Id. In reviewing a trial court’s decision to give or
refuse a tendered instruction, we consider whether the
instruction (1) correctly states the law; (2) is supported
by evidence in the record; and (3) is covered in
substance by other instructions. Wal-Mart Stores v.
Wright, 774 N.E.2d 891 (Ind. 2002).
The trial court instructed the jury as follows in
Final Instruction Number 5:
“‘Female sex organ’ includes any part of the
female sex organ, including the vaginal vault,
the labia or the external genitalia.”
Appellant’s Appendix at 72. Kimbrough argues that
this is an incorrect statement of the law without
supporting analysis as to why this instruction
incorrectly states the law. Consequently, this argument
has been waived. See Hollowell v. State, 707 N.E.2d
1014, 1025 (Ind. Ct. App. 1999) (“[f]ailure to present a
cogent argument constitutes a waiver of that issue for
appellate review.”).
Waiver notwithstanding, we find that the
instruction as given is not an incorrect statement of the
law. As previously stated, our statute defining sexual
intercourse does not require that the vagina be
penetrated, only that the female sex organ, including

App. 66
the external genitalia, be penetrated. Smith v. State,
779 N.E.2d 111. The instruction was not covered by
other instructions. Further, the decision to give the
instruction was supported by Dr. Watts’ testimony,
which follows:
The female sex organ is many parts that we
would consider. Goes all the way from the outer
labia. In the vaginal lips is what I guess people
would call them in the law terms all the way up
into the uterus. So the vaginal vault, the clitoris.
It is all the area, outside and internal.
Transcript at 310. “The purpose of an instruction is to
inform the jury of the law applicable to the facts
without misleading the jury and to enable it to
comprehend the case clearly and arrive at a just, fair,
and correct verdict.” Overstreet v. State, 783 N.E.2d
1140, 1163 (Ind. 2003). The trial court did not abuse its
discretion here as the instruction aids the jury in
comprehending what must be penetrated in order to
support the conviction.
3.
Kimbrough contends that the trial court abused its
discretion when it sentenced him. In particular,
Kimbrough appears to argue that the trial court
considered improper aggravating circumstances and
failed to give enough weight to the sole mitigating
circumstance, i.e., his lack of a significant criminal
history.
Sentencing decisions rest within the sound
discretion of the trial court. Anglemyer v. State, 868
N.E.2d 482 (Ind. 2007), clarified on reh’g, 875 N.E.2d

App. 67
218. With the exception of our authority to review
sentences under Ind. Appellate Rule 7(B), as long as a
defendant’s sentence is within the statutory range, it is
reviewed only for an abuse of discretion. Id. An abuse
of discretion occurs if the trial court’s decision is clearly
against the logic and effect of the facts and
circumstances and the reasonable inferences to be
drawn therefrom. Id. Circumstances under which a
trial court may be found to have abused its discretion
include: (1) failing to enter a sentencing statement,
(2) entering a sentencing statement that includes
reasons not supported by the record, (3) entering a
sentencing statement that omits reasons clearly
supported by the record, or (4) entering a sentencing
statement that includes reasons that are improper as
a matter of law. Id. Where a trial court has identified
proper aggravating and mitigating circumstances,
however, “[t]he relative weight or value assignable to
reasons properly found or those which should have
been found is not subject to review for abuse.” Id. at
491.
When imposing a sentence for a felony, the trial
court must enter a sentencing statement that includes
a reasonably detailed recitation of its reasons for
imposing the sentence. Anglemyer v. State, 868 N.E.2d
482. A trial court abuses its discretion if its reasons
and circumstances for imposing the sentence are
clearly against the logic and effect of the facts and
circumstances before the court, or the reasonable,
probable, and actual deductions to be drawn therefrom.
Hollin v. State, 877 N.E.2d 462 (Ind. 2007). If the
statement includes a finding of aggravating and/or
mitigating circumstances, then the statement must

App. 68
identify all significant mitigating and aggravating
circumstances. Anglemyer v. State, 868 N.E.2d 482.
The trial court noted that Kimbrough had recently
violated the conditions of his pre-trial release granted
in another court, the young ages of the victims, and
that Kimbrough was in a position of trust with the
victims and violated that trust over a two-year period.
The trial court found those facts to be aggravating
circumstances.
“A defendant’s commission of an offense while he or
she ‘was in a position having care, custody, or control
of the victim of the offense” is a valid aggravating
circumstance.” Ind. Code Ann. § 35-38-1-7.1(a)(8)
(West, Westlaw current through 2011 1st Reg. Sess.).
Furthermore, while the charging information alleged
that the offenses occurred between March 2008 and
October 29, 2010, the trial court correctly noted that
the evidence supported the jury’s finding that the
molestations occurred over a nearly two-year period
between January 2009 and October 29, 2010. Last,
even when the age of the victim is an element of the
offense, extreme youth can support an enhanced
sentence as a particularized circumstance of the crime.
Edrington v. State, 909 N.E.2d 1093 (Ind. Ct. App.
2009); Brown v. State, 760 N.E.2d 243 (Ind. Ct. App.
2002). Here, the record establishes that the victims
were approximately five years old and seven years old
when the offenses first occurred. We find no abuse of
discretion in the finding of these valid aggravating
circumstances.
The trial court found as a mitigating circumstance
that Kimbrough had no history of delinquency or

App. 69
criminal activity. Thus, the trial court did not err by
failing to recognize a valid mitigating circumstance
supported by the record. It is our duty, however, to
“correct sentencing errors, sua sponte, if necessary.”
Comer v. State, 839 N.E.2d 721, 726 (Ind. Ct. App.
2005). Generally, a lack of criminal history is
recognized as a substantial mitigating factor. Loveless
v. State, 642 N.E.2d 974 (Ind. 1994). The sentencing
range for a class A felony is “a fixed term of between
twenty (20) and fifty (50) years, with the advisory
sentence being thirty (30) years. Ind. Code Ann.
§ 35-50-2-4 (West, Westlaw current through 2011 1st
Reg. Sess.). After finding this substantial mitigating
factor, the trial court, enhanced the advisory sentence
by ten years for the class A felony convictions. Focusing
on the appropriateness of the sentence and not the
weight given to individual aggravating or mitigating
factors, we find that the trial court abused its
discretion. While we acknowledge the existence of the
aggravating circumstances, an aggregate sentence of
eighty years for a defendant with no criminal history is
clearly against the logic and effect of the facts and
circumstances before the trial court. Given the
existence of this substantial mitigating factor, a
sentence of twenty years on Counts I and II, with a
consecutive sentence of twenty years for Counts I and
IV, for an aggregate sentence of forty years is
supported by the evidence. We reverse the trial court’s
sentencing order and remand to the trial court to enter
an order imposing the sentence outlined above.
Judgment affirmed in part, reversed in part, and
remanded.

App. 70
RILEY, J., concurs.
MATHIAS, J., concurs in part and dissents in part.
MATHIAS, Judge, concurring in part and
dissenting in part
I concur fully in the majority’s resolution of
Kimbrough’s claims concerning the sufficiency of the
evidence and the trial court’s jury instructions. I also
agree with the majority’s conclusion that the
aggravating factors identified by the trial court were
supported by the record. However, I must part ways
with my colleagues’ conclusion that the trial court
abused its discretion by imposing what the majority
views as an inappropriately harsh sentence in light of
Kimbrough’s lack of criminal history.
As our supreme court explained in Anglemyer v.
State, sentencing decisions rest within the sound
discretion of the trial court and, while subject to our
authority to review and revise sentences under
Appellate Rule 7(B), sentences are reviewed only for an
abuse of that discretion. 868 N.E.2d 482, 490 (Ind.
2007), clarified on reh’g, 875 N.E.2d 218. A trial court
may abuse its sentencing discretion in a number of
ways, including: (1) failing to enter a sentencing
statement at all; (2) entering a sentencing statement
that includes aggravating and mitigating factors that
are unsupported by the record; (3) entering a
sentencing statement that omits reasons that are
clearly supported by the record; or (4) entering a
sentencing statement that includes reasons that are
improper as a matter of law. Id. at 490-491. As the

App. 71
majority correctly notes, under our current statutory
sentencing regime, a trial court cannot be said to have
abused its discretion in failing to properly weigh the
mitigating and aggravating factors. Id. at 491. “[T]his
is so because once the trial court has entered a
sentencing statement, which may or may not include
the existence of aggravating and mitigating factors, it
may then ‘impose any sentence that is . . . authorized
by statute; and . . . permissible under the Constitution
of the State of Indiana.’” Id. (quoting Ind. Code
§ 35-38-1-7.1(d)) (alteration in original).
In the case before us, the trial court entered a
reasonably detailed sentencing statement setting forth
valid aggravating and mitigating factors that are
supported by the record, and Kimbrough raises no
argument that the trial court overlooked any
significant mitigating factors. Accordingly, the trial
court did not abuse its discretion in imposing
Kimbrough’s sentence, and appellate review of the
merits of the sentence is therefore limited to the
grounds outlined in Appellate Rule 7(B). See
Anglemyer, 868 N.E.2d at 491 (holding that it is on the
basis of Appellate Rule 7(B) alone that a criminal
defendant may challenge his or her sentence where the
trial court has entered a sentencing statement that
includes a reasonably detailed recitation of its reasons
for imposing a particular sentence that is supported by
the record, and the reasons are not improper as a
matter of law, but has imposed a sentence with which
the defendant takes issue). Because Kimbrough
advances no argument under Appellate Rule 7(B)
concerning the nature of the offense or his character, I

App. 72
would not reach the issue of the appropriateness of his
sentence.3
But even assuming that it is proper to analyze
Kimbrough’s sentence under Appellate Rule 7(B) sua
sponte, I would conclude that his sentence was not
inappropriate. Although a trial court may have acted
within its lawful discretion in imposing a sentence,
Article 7, Sections 4 and 6 of the Indiana Constitution
authorize independent appellate review and revision of
a sentence imposed by the trial court. Alvies v. State,
905 N.E.2d 57, 64 (Ind. Ct. App. 2009) (citing
Anglemyer, 868 N.E.2d at 491). This appellate
authority is implemented through Indiana Appellate
Rule 7(B), which provides that a court “may revise a
sentence authorized by statute if, after due
consideration of the trial court’s decision, the Court
finds that the sentence is inappropriate in light of the
nature of the offense and the character of the offender.”
Anglemyer, 868 N.E.2d at 491.
In that consideration however, “we must and should
exercise deference to a trial court’s sentencing decision,
3

The majority correctly notes that it is our duty to correct
sentencing errors, sua sponte, if necessary. See Comer v. State, 839
N.E.2d 721, 726 (Ind. Ct. App. 2005). But a request for sentence
revision under Appellate Rule 7(B) is not truly a claim of
sentencing error. Rather, it is a request for this court to exercise
its constitutional authority to revise a lawfully entered sentence.
See Anglemyer, 868 N.E.2d at 491 (providing that even where a
trial court has acted within its discretion in imposing a sentence,
Article VII, Sections 4 and 6 of the Indiana Constitution, which are
implemented through Appellate Rule 7(B), authorize independent
appellate review and revision of a sentence imposed by the trial
court). Kimbrough has made no such request here.

App. 73
both because Rule 7(B) requires us to give ‘due
consideration’ to that decision and because we
understand and recognize the unique perspective a
trial court brings to its sentencing decisions.” Stewart
v. State, 866 N.E.2d 858, 866 (Ind. Ct. App. 2007). The
burden is on the defendant to persuade us that his
sentence is inappropriate. Reid v. State, 876 N.E.2d
1114, 1116 (Ind. 2007). Finally, although we have the
power to review and revise sentences, “[t]he principal
role of appellate review should be to attempt to leaven
the outliers, and identify some guiding principles for
trial courts and those charged with improvement of the
sentencing statutes, but not to achieve a perceived
‘correct’ result in each case.” Cardwell v. State, 895
N.E.2d 1219, 1225 (Ind. 2008).
Here, Kimbrough was convicted of four counts of
Class A felony child molesting, for which the
sentencing range is between twenty and fifty years,
with an advisory sentence of thirty years. See Ind.
Code § 35-50-2-4. Kimbrough received an
above-advisory, but below-maximum, sentence of forty
years on each count. The sentences on Counts I and II
were ordered to be served concurrently. Likewise, the
sentences on Counts III and IV were ordered to be
served concurrently with each other, but consecutive to
the sentences on Counts I and II. Accordingly,
Kimbrough received an aggregate sentence of eighty
years in the Department of Correction.
Based solely on Kimbrough’s lack of criminal
history, the majority revises Kimbrough’s sentence to
the minimum term of twenty years on each count, but
retains the trial court’s imposition of concurrent and

App. 74
consecutive sentences, resulting in an aggregate
sentence of forty years in the Department of
Correction. Although I agree that Kimbrough’s lack of
criminal history is a significant mitigating factor, I
disagree that this factor, standing alone, warrants
revision of Kimbrough’s sentence, much less revision to
the minimum sentence on each count.
Here, the record establishes that Kimbrough
molested two victims. As a general matter, the
existence of multiple victims may justify the imposition
of both enhanced and consecutive sentences. See
Sanchez v. State, 938 N.E.2d 720, 723 (Ind. 2010);
Tyler v. State, 908 N.E.2d 463, 468 (Ind. 2009);
Granger v. State, 946 N.E.2d 1209, 1221 (Ind. Ct. App.
2011). Nevertheless, Indiana courts have occasionally
revised sentences for child molestation even where
there were multiple victims when other evidence in the
record supported revision. See Sanchez, 938 N.E.2d at
723 (revising defendant’s consecutive, enhanced
sentences to be served concurrently where defendant
molested two young victims, but molestations were
isolated incidents and defendant had limited criminal
history unrelated to the molestations and did not
physically harm victims); Granger, 946 N.E.2d at 1221
(reducing defendant’s executed sixty-year sentence for
molesting two preteen victims to fifty years executed
with ten years suspended in light of the defendant’s
“lack of prior criminal record, generally good conduct in
the community separate from the offenses for which
she was convicted, and lack of substantial physical
harm to her victims”).

App. 75
Based on my review of the record, I am unconvinced
that sentence revision is warranted in the case before
us. With respect to the nature of the offense, the record
establishes that Kimbrough molested two very young
victims, seven-year-old J.L. and five-year old A.D. See
Hamilton v. State, 955 N.E.2d 723, 727 (Ind. 2011)
(noting that “the victim’s age . . . suggests a sliding
scale in sentencing, as younger ages of victims tend to
support harsher sentences.”). Kimbrough’s victims
were considerably younger than the eleven-year-old
victims in Granger. See 946 N.E.2d at 1211-12.
Moreover, in molesting the girls, Kimbrough
violated a position of significant trust. See Hamilton,
955 N.E.2d at 727 (noting that “[a] harsher sentence is
also more appropriate when the defendant has violated
a position of trust that arises from a particularly close
relationship between the defendant and the victim,
such as a parent-child or stepparent-child
relationship.”). As the majority notes, while Kimbrough
and Mother were dating, the couple and the children
did many things together as a family, and Kimbrough
routinely drove the girls to school and helped them
with their homework. Indeed, Kimbrough developed
such a close relationship with the girls that Mother
continued to allow him to have contact with the J.L.
and A.D. even after she and Kimbrough stopped dating.
Moreover, and as the majority recognizes, the trial
court’s conclusion that the molestations occurred on
multiple occasions and over a time period spanning
nearly two years was supported by the record. See
Harris v. State, 897 N.E.2d 927, 930 (Ind. 2008)
(concluding that the defendant’s ongoing molestation of

App. 76
the victim, coupled with his abuse of a position of trust,
was sufficient to justify the imposition of enhanced
sentences). Thus, unlike the defendant in Sanchez,
Kimbrough’s molestations of J.L. and A.D. were not
isolated incidents. See 938 N.E.2d at 722. I also find it
noteworthy that Kimbrough continued to molest A.D.
after she asked him to stop and that he instructed her
not to tell anyone about the abuse.
With respect to Kimbrough’s character, I agree that
his lack of criminal history is a significant mitigating
factor. But I do not believe that this factor, standing
alone, renders Kimbrough’s sentence inappropriate.
Kimbrough’s abuse of his position of trust with respect
to J.L. and A.D. reflects very negatively on his
character. Moreover, the record reflects that at the
time of sentencing, there was an active warrant for
Kimbrough’s arrest for failure to appear on a driving
while suspended charge, and Kimbrough was also
facing charges of Class B felony criminal confinement,
Class C felony intimidation, Class D felony criminal
confinement, and Class D felony residential entry. See
Cotto v. State, 829 N.E.2d 520, 526 (Ind. 2005) (holding
that a record of arrest alone does not establish the
historical fact that a defendant committed a crime, but
that it may be relevant to the assessment of the
defendant’s character in terms of the risk that he will
commit another crime). Additionally, Kimbrough
violated the terms of his pretrial release granted by
another court in a separate case.
In light of this evidence concerning Kimbrough’s
character, combined with the aforementioned evidence
concerning the nature of the offense, specifically the

App. 77
presence of multiple victims, their young ages, the
ongoing nature of Kimbrough’s crimes, and his abuse
of a position of trust, I cannot agree with the majority
that revision of Kimbrough’s sentence is warranted,
particularly revision to the minimum sentence for each
of Kimbrough’s four Class A felony convictions and the
resulting forty-year aggregate sentence. Mindful of the
deference we owe to the trial court in sentencing
matters, I would affirm the trial court’s eighty-year
aggregate sentence for Kimbrough’s four Class A felony
child molesting convictions.

